HHS/OIG - Audit,"Audit of Medicaid Provider Accounts Receivable Overpayments in Iowa,"(A-07-04-01002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Provider Accounts Receivable Overpayments in Iowa," (A-07-04-01002)
March 26, 2004
Complete
Text of Report is available in PDF format (256 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether records maintained by the Iowa Department of Human Services (Iowa)
supported the accounts receivable for overpayments reported to the Centers for Medicaid and Medicare Services (CMS), and
whether Iowa developed adequate policies and procedures to ensure the collection of those overpayments.  We found
Iowa lacked sufficient internal controls with regard to Medicaid accounts receivable overpayments.  Specifically,
Iowa did not; (1) account for overpayment receivables according to generally accepted accounting principles, (2) report
collections correctly to CMS, and (3) meet the 60-day reporting requirement prescribed by Federal regulations.  These
issues occurred because Iowa did not account for overpayment receivables in a formal bookkeeping system, follow the State
Medicaid Manual reporting instructions, and develop adequate policies and procedures.